DISCLOSURE OF MILITARY
ANNUAL PERCENTAGE RATE (MAPR)
Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must
include, as applicable to the credit transaction or account: the costs associated with credit insurance
premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for a credit card account). Please call
PSECU for further details at 800.237.7328, extension 3846.

©PSECU Form #3107 0321

